                                               OFFICE OF WORKERS’
                                               COMPENSATION PROGRAMS

Office of Inspector General—Office of Audit





                                               LONGSHORE AND HARBOR WORKERS’
                                               COMPENSATION ACT SPECIAL FUND
                                               FINANCIAL STATEMENTS AND
                                               INDEPENDENT AUDITORS’ REPORT
                                               September 30, 2012 and 2011



                                                This report was prepared by KPMG, LLP, under contract to the U.S.
                                                Department of Labor, Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.

                                                                                    ______________________________
                                                                                     Assistant Inspector General for Audit
                                                                                   Date Issued:           xxxx xx, 2013
                                                                                Report Number:         xx-xx-xxx-xx-xxx




                                                                                  Date Issued:          March 29, 2013
                                                                               Report Number:         22-13-004-04-432
                                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report




                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 



                                       Table of Contents 




                                                                                               Page
ACRONYMS                                                                                          iii

Management’s Discussion and Analysis
   Mission and Organizational Structure                                                           1

   Financial Highlights                                                                           2

   Performance Goals and Results                                                                  2

   Internal Controls                                                                              3

   Known Risks and Uncertainties                                                                  3

   Limitations of the Financial Statements                                                        4

Independent Auditors’ Report                                                                      5

FINANCIAL STATEMENTS
   Balance Sheets                                                                                17 

   Statements of Net Cost                                                                        18 

   Statements of Changes in Net Position                                                         19 

   Statements of Budgetary Resources                                                             20 


NOTES TO THE FINANCIAL STATEMENTS
   Note 1 – Summary of Significant Accounting Policies                                           21 

   Note 2 – Funds with U.S. Treasury                                                             25 

   Note 3 – Investments, Net                                                                     26 

   Note 4 – Accounts Receivable, Net                                                             27 

   Note 5 – Other Liabilities                                                                    28 

   Note 6 – Transfers to OWCP                                                                    28 

   Note 7 – Status of Budgetary Resources                                                        29 

   Note 8 – Reconciliation of Budgetary Resources Obligated 

            to Net Cost of Operations                                                            30 

   Note 9 – Concentration of Risk                                                                30 





_________________________________________________________________________________________
                                              U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 22-13-004-04-432
i
                                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





_________________________________________________________________________________________
                                              U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 22-13-004-04-432
ii
                                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report




                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND


                                            Acronyms



AUP           Agreed Upon Procedures

DCCA          District of Columbia Workmen’s Compensation Act

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

Fund          Longshore and Harbor Workers’ Compensation Act Special Fund

FY            Fiscal Year

LHWCA         Longshore and Harbor Workers’ Compensation Act

OMB           Office of Management and Budget

OWCP          Office of Workers’ Compensation Programs

Program       Longshore and Harbor Workers’ Compensation Act Program

SBR           Statement of Budgetary Resources

SFFAS         Statements of Federal Financial Accounting Standards

U.S.C.        United States Code

USSGL         United States Standard General Ledger




_________________________________________________________________________________________
                                              U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 22-13-004-04-432
iii
                                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





_________________________________________________________________________________________
                                              U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 22-13-004-04-432
iv
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                   Management’s Discussion and Analysis (unaudited)

                       Years ended September 30, 2012 and 2011 




Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation Act are paid from the LHWCA
Special Fund (the Fund) comprised primarily of employer contributions (assessments). In
fiscal years (FY) 2012 and 2011, 3,943 and 4,071 injured workers and dependents
received compensation benefits from the Fund.

The reporting entity is the Fund. Organizationally the Fund is administered by the
Department of Labor (DOL), Office of Workers’ Compensation Programs (OWCP),
Division of Longshore and Harbor Workers’ Compensation (DLHWC). The DLHWC has
direct responsibility for administration of the Fund. The Fund supports the program
mission by providing compensation, and in certain cases, medical care payments to
employees disabled from injuries which occurred under the Longshore and Harbor
Workers’ Compensation Act or its extensions. The Fund also extends benefits to
dependents if any injury resulted in the employee’s death.

Additionally, Section 10(h) of the LHWCA provides annual wage increase compensation
(cost of living adjustments) for pre-1972 compensation cases entitled due to total
permanent disability or death. Fifty percent of this annual wage increase compensation is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the
annual assessment. Appropriated funding for Section 10(h) is not reflected in the
accompanying financial statements. Appropriated funding is reflected in the Federal
Employees’ Compensation Act Special Benefit Fund.

Administrative services for operating the Fund are provided by OWCP on behalf of the
Fund. Funding for these costs is primarily provided by Federal Appropriations to OWCP’s
Salaries and Expense account, which is not part of the Fund. The Fund reimburses
OWCP for certain direct expenses associated with administrative support of the Fund
and for rehabilitation services provided to eligible claimants.




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     1                      Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                   Management’s Discussion and Analysis (unaudited)
                       Years ended September 30, 2012 and 2011



Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$124,486,637 in FY 2012 and $126,360,567 in FY 2011. Other sources of payments into
the Fund include fines and penalties levied under the LHWCA (section 44c), payments
by employers of $5,000 for each death case where there is no survivor entitled to the
benefits, and interest payments on Fund investments.

Investment interest income for the Fund was $18,628 for FY 2012 compared to $24,791
for FY 2011. The average interest rate earned during FY 2012 was 0.05% compared to
0.07% for FY 2011.

The Fund’s costs remained relatively stable compared to FY 2011; $124,313,279 for FY
2012 compared to $124,345,106 for FY 2011. Proceeds of the Special Fund are used
for payments under: section 8(f) for second injury claims; section 10(h) for initial and
subsequent annual adjustments in compensation for permanent total disability or related
death from injuries which occurred prior to the effective date of the 1972 LHWCA
amendments; sections 39(c) and 8(g) for the procurement of medical and vocational
rehabilitation services for permanently disabled employees and to provide a maintenance
allowance to workers undergoing rehabilitation; section 18(b) for compensation to injured
workers in cases of employer default; and section 7(e) for the cost of certain medical
examinations.

Performance Goals and Results

The DLHWC’s administration of the Fund supports DOL’s Strategic Goal 4 – Secure
health benefits and, for those not working, provide income security. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC’s
administration of the Fund supports Strategic Goal 4 – “Secure health benefits and, for
those not working, provide income security” and Outcome Goals 4.1, Facilitate return to
work for workers experiencing workplace injuries or illnesses who are able to work and
income and medical care for those who are unable to work, and 4.2, Ensure income
support when work is impossible or unavailable. DOL plays a large role in ensuring that
worker benefits are protected and that employers administer benefit programs in an
appropriate way. The DLHWC assists in meeting these outcome goals by ensuring
sufficient funds are assessed to fund the benefit payments, and payments to the

 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     2                      Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                    Management’s Discussion and Analysis (unaudited)
                       Years ended September 30, 2012 and 2011



beneficiaries are made promptly. In FY 2012, assessments were sufficient to cover the
costs, and performance goals targeting the timeliness of initial claims processing and
benefit delivery outcomes were achieved.

Internal Controls

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessment is comprised of four employees and one
supervisor. It guards against unethical behavior by segregating duties and assigning
roles to each function. Much of the oversight, evaluation, monitoring, control and
supervisory activity is face-to-face. Each of the district offices operates like the Branch of
Financial Management, Insurance and Assessment.

Management communicates all procedural, policy, and operating goals to staff with
regular staff meetings, a written procedure manual, e-mails, and frequent individual
communications regarding changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.

For cases paid by the Special Fund, a District Director or Administrative Law Judge
issues a formal Compensation Order to identify the payee and set the amount. Five
employees review each new case before making the payment to ensure accuracy.

With the exception of certain internal control deficiencies noted in the Independent
Auditors’ Report, monthly cash basis statements, monthly case management reports,
quarterly review processes, biweekly payment summaries, the Statement of Transactions
(SF-224) and the Statement of Differences (FMS-6652) all provide current, reliable, and
accurate information.

Known Risks and Uncertainties

The Fund is the single largest payer of indemnity payments under the LWHCA. Although
there are approximately 526 authorized insurance carriers and self-insured employers,
benefit payments are concentrated among a relatively few. For example, the top ten

 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     3                      Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                   Management’s Discussion and Analysis (unaudited)

                       Years ended September 30, 2012 and 2011 




carriers and self-insurers alone pay 53% of the total industry payments excluding Special
Fund payments. If a major carrier or self-insurer fails, the remainder would face
substantially increased assessments.

The Fund is reviewed one year at a time for current expenses. There are no reserve
funds for future Fund obligations. A series of high value single payment claims, for
example a large number of hearing loss claims resolved in the private sector, could
exceed the predictions used to quantify the assessment. A single, very large claim from
an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
ensure the Fund has sufficient liquid resources to fund claims liabilities as they come
due.

There are currently no known examples of these risks and uncertainties.

Limitations of the Financial Statements

The following are limitations of the financial statements:

	 The financial statements have been prepared to report the financial position and
   results of operations of the Fund, pursuant to the requirements of the Longshore and
   Harbor Workers’ Compensation Act (33 U.S.C. 944(j)).
	 While the statements have been prepared from the books and records of the Fund in
   accordance with U.S. Generally Accepted Accounting Principles for U.S. Government
   entities and the formats prescribed by the Office of Management and Budget, (OMB),
   the statements are different from the financial reports used to monitor and control
   budgetary resources which are prepared from the same books and records.
	 The statements should be read with the realization that they are for a component of
   the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
   the enactment of an appropriation, and that the payment of all liabilities other than for
   contracts can be abrogated by the sovereign entity.




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     4                      Report Number: 22-13-004-04-432
                                            Longshore and Harbor Workers’ Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report


                           KPMG LLP
                           Suite 12000
                           1801 K Street, NW
                           Washington, DC 20006




                               Independent Auditors’ Report


Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

Deputy Inspector General
U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of Labor’s
(DOL) Longshore and Harbor Workers’ Compensation Act Special Fund (the Fund) as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, and budgetary resources (hereinafter referred to as “financial statements” or
“basic financial statements”) for the years then ended. The objective of our audits was to
express an opinion on the fair presentation of these financial statements. In connection
with our fiscal year (FY) 2012 audit, we also considered the Fund’s internal control over
financial reporting and tested the Fund’s compliance with certain provisions of applicable
laws, regulations, and contracts that could have a direct and material effect on these
financial statements.

Summary
As stated in our opinion on the financial statements, we concluded that the Fund’s
financial statements as of and for the years ended September 30, 2012 and 2011, are
presented fairly, in all material respects, in conformity with U.S. generally accepted
accounting principles.

As discussed in our opinion on the financial statements, management changed the
Fund’s presentation for reporting the Statement of Budgetary Resources in FY 2012.

Our consideration of internal control over financial reporting resulted in identifying certain
deficiencies that we consider to be significant deficiencies, as defined in the Internal
Control over Financial Reporting section of this report, as follows:

1. Controls over the Financial Reporting Process Need Improvement
2. Controls over the Assessments Subsidiary Ledger Need Improvement

We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control over Financial
Reporting section of this report.
 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     5                      Report Number: 22-13-004-04-432
                           KPMG LLP is a Delaware limited liability partnership,
                           the U.S. member firm of KPMG International Cooperative
                           (“KPMG International”), a Swiss entity.
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report


The results of our tests of compliance with certain provisions of laws, regulations, and
contracts disclosed no instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards, issued by the Comptroller General of
the United States, and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended.

The following sections discuss our opinion on the Fund’s financial statements; our
consideration of the Fund’s internal control over financial reporting; our tests of the
Fund’s compliance with certain provisions of applicable laws, regulations, and contracts;
and management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of Labor’s
Longshore and Harbor Workers’ Compensation Act Special Fund as of September 30,
2012 and 2011, and the related statements of net cost, changes in net position, and
budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Labor’s Longshore and Harbor
Workers’ Compensation Act Special Fund as of September 30, 2012 and 2011, and its
net costs, changes in net position, and budgetary resources for the years then ended, in
conformity with U.S. generally accepted accounting principles.

As discussed in Note 1(j) to the financial statements, management changed the Fund’s
presentation for reporting the Statement of Budgetary Resources in FY 2012, based on
new reporting guidance under OMB Circular No. A-136, Financial Reporting
Requirements. As a result, the Fund’s Statement of Budgetary Resources for FY 2011
has been adjusted to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in the
Management’s Discussion and Analysis be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is
required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing
the information for consistency with management’s responses to our inquiries, the basic
financial statements, and other knowledge we obtained during our audits of the basic
financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.


 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     6                      Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report


Internal Control over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in internal control over financial reporting that might be deficiencies,
significant deficiencies or material weaknesses. In our FY 2012 audit, we did not identify
any deficiencies in internal control over financial reporting that we consider to be material
weaknesses, as defined above. However, we identified certain deficiencies in internal
control over financial reporting described in Exhibit I that we consider to be significant
deficiencies in internal control over financial reporting. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with
governance.

Exhibit II presents the status of the prior year material weakness.

Compliance and Other Matters
The results of our tests of compliance, as described in the Responsibilities section of this
report, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.
                                          *******
Responsibilities
Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control over financial
reporting; and complying with laws, regulations, and contracts applicable to the Fund.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the FY 2012
and 2011 financial statements of the Fund based on our audits. We conducted our audits
in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and
perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion.
 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     7                      Report Number: 22-13-004-04-432
                                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report


An audit also includes:

       Examining, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;
       Assessing the accounting principles used and significant estimates made by
        management; and
       Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our FY 2012 audit, we considered the Fund’s internal control
over financial reporting by obtaining an understanding of the Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the Fund’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control over financial reporting. We did not test all controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act
of 1982.

As part of obtaining reasonable assurance about whether the Fund’s FY 2012 financial
statements are free of material misstatement, we performed tests of the Fund’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance
with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04, as amended. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to the Fund. However, providing an opinion
on compliance with laws, regulations, and contracts was not an objective of our audit
and, accordingly, we do not express such an opinion.
                          ______________________________
Management’s written response to the findings identified in our audit and presented in
Exhibit I was not subject to the auditing procedures applied in the audit of the Fund’s
financial statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of DOL’s management, DOL’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress, and is not intended to be and should not be used by anyone other than
these specified parties.


March 29, 2013


    ____________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
                                        8                      Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

1. Controls Over the Financial Reporting Process Need Improvement
In fiscal year (FY) 2012, the U.S. Department of Labor’s (DOL) Office of Workers’
Compensation Programs (OWCP) implemented corrective actions to address certain
prior year recommendations related to the review of the draft financial statements.
Specifically, the OWCP designed and implemented a checklist (referred to as the
Reconciliation Checklist) that outlined the requirements for performing a review of the
financial information in the draft financial statements. The checklist included procedures
for agreeing comparative prior year financial data to the prior year audited statements;
verifying financial data that was reported on multiple statements was consistent;
reconciling the financial data between the general ledger and subsidiary ledgers;
performing a budgetary to proprietary account relationship analysis; and analyzing
significant variances between current period and prior period financial information. As a
result, we noted certain improvements in financial reporting controls. However, we
continued to note the following issues:

Financial Reporting Process. During our review of the Longshore and Harbor
Workers’ Compensation Act (LHWCA) Fund’s FY 2012 draft financial statements, we
noted that the Statement of Budgetary Resources (SBR) for FY 2012 and FY 2011 were
not presented in conformity with the Office of Management and Budget (OMB) Circular
No. A-136, Financial Reporting Requirements, new reporting guidance. For example,
certain required financial statement captions, including “Budget Authority, net,” were
excluded from the SBR section “Budget Authority and Outlays.” The OWCP informed us
that they did not present the SBR in conformity with OMB Circular No. A-136 because
they believed the excluded information was captured in other sections of the SBR. The
OWCP subsequently corrected these presentation errors in the final year-end financial
statements.

In addition, during our testing of the presentation of the Statement of Net Cost, we
determined that certain benefit expenses reported for section 8(f) and section 18(b)
were misclassified. This occurred because the benefit payment summary report used to
record the expenses was not configured correctly. As a result, benefit expenses related
to section 8(f) were initially understated by approximately $1 million, while section 18(b)
expenses were overstated by the same amount. The OWCP corrected these errors in
the final year-end financial statements.

We also noted that certain key financial reporting controls were not performed in a
timely manner. For example, the year-end budgetary to proprietary account relationship
analysis was not prepared until December 11, 2012. In addition, the OWCP
experienced delays in preparing the financial statements at year-end. The draft FY 2012
financial statements were initially due on November 22, 2012; however, the OWCP was
not able to complete the initial draft financial statements until December 14, 2012.



____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    9                      Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

During the FY 2012 audit, we also determined that management had not performed an
analysis to assess whether certain administrative costs and rehabilitation services paid
on behalf of the LHWCA Special Fund were properly accounted for in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government. Although this matter
was identified and presented to the OWCP management in November 2012, sufficient
research to resolve these issues in a timely manner was not performed until
February 2013. This occurred primarily because the OWCP did not have a formal
process in place to ensure significant financial reporting issues were researched,
properly resolved, and documented in a timely manner.

The issues noted above increased the risk that the Fund’s financial statements could be
misstated or not presented in conformity with U.S. generally accepted accounting
principles.

The Government Accountability Office, Standards for Internal Control in the Federal
Government (Standards), states:

   	 Internal control should generally be designed to assure that ongoing
      monitoring occurs in the course of normal operations. It is performed
      continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparisons, reconciliations, and
      other actions people take in performing their duties.

   	 Internal control should provide reasonable assurance that the objectives of
      the agency are being achieved relative to reliability of financial reporting,
      including reports on budget execution, financial statements, and other
      reports for internal and external use and compliance with applicable laws
      and regulations.

   	 Internal control and all transactions and other significant events need to be
      clearly documented, and the documentation should be readily available for
      examination. The documentation should appear in management
      directives, administrative policies, or operating manuals and may be in
      paper or electronic form. All documentation and records should be
      properly managed and maintained.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states:

       Control deficiencies exist when the design or operation of a control does
       not allow management or employees, in the normal course of performing
       their assigned functions, to prevent or detect misstatements on a timely
       basis. A design deficiency exists when a control necessary to meet the
       control objective is missing or an existing control is not properly designed,
____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    10                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

       so that even if the control operates as designed the control objective is not
       always met.

Journal Entries. During our FY 2012 audit, we identified certain deficiencies during our
testing of a sample of fourteen journal entries recorded in the general ledger for the
period October 1, 2011 through September 30, 2012. Specifically, we noted the
following exceptions:

	 Two journal entries did not accurately reflect the underlying events and transactions.
   The first journal entry resulted in an overstatement of Benefit Expenses, Other
   Revenue, and Obligations Incurred of $132,661. As this error was uncorrected as of
   September 30, 2012, we included it in our summary of audit misstatements. The
   second journal entry resulted in an overstatement of Accounts Receivable, net, and
   Other Liabilities of $288,720. The OWCP corrected this error as of September 30,
   2012.

	 Two journal entries related to assessment overpayments were incorrectly posted to
   Deferred Revenue instead of Other Liabilities and were not detected during the initial
   supervisory review. These errors were subsequently corrected by management.

The exceptions above were caused by insufficient review of journal entries by the
OWCP supervisors to ensure that journal entries were properly prepared and supported
before posting to the general ledger.

In addition, we identified two journal entries during our testing over benefit
overpayments that were not posted in accordance with the U.S. Standard General
Ledger (USSGL). These entries were to record the change in overpayments from
claimants in the general ledger but were incorrectly posted to Benefit Expense instead
of Other Expenses Not Requiring Budgetary Resources. As a result of these errors, we
inspected the remaining ten journal entries used to record the change in overpayments
from claimants and noted that they were also not in accordance with the USSGL. These
exceptions occurred because management continued to use a general ledger posting
model that was not in accordance with the USSGL. Although management
acknowledges that changes were required, competing priorities prevented the
completion of all necessary corrections of misclassified amounts in the general ledger
for FY 2012. There was no impact on the presentation of amounts in the financial
statements as a result of these exceptions.

The Standards state:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency’s operations. It includes regular
       management and supervisory activities, comparisons, reconciliations, and
       other actions people take in performing their duties.
____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    11                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

In addition, the USSGL contains the chart of accounts that provides the basic
accounting structure for Federal agencies’ general ledger systems. It incorporates both
proprietary and budgetary accounts. It also provides the accounting transactions for
events occurring throughout the Federal Government. These transactions illustrate the
proper proprietary and budgetary entries for each accounting event.

To address the issues above, the OWCP Acting Director should:

   1) Update the Reconciliation Checklist to include procedures for ensuring new
      financial reporting requirements are properly incorporated into the financial
      statements and notes.

   2) Establish appropriate due dates to ensure key financial reporting controls, such
      as the budgetary to proprietary account relationship analysis, and the preparation
      of draft financial statements are completed in a timely manner.

   3) Re-configure the benefit payment summary report so that the payment data is
      properly presented in the appropriate expense category, and implement
      procedures to correct any subsequent misclassification errors resulting from the
      incorrect configuration of the benefit payment summary report until the report is
      re-configured.

   4) Develop and implement a formal process for promptly researching and resolving
      significant financial reporting issues that are identified. In addition, resolution of
      each issue should be formally documented and retained to support the financial
      statements’ compliance with U.S. generally accepted accounting principles.

   5) Provide training to applicable supervisors to ensure they are performing sufficient
      reviews of journal entries and related documentation before the entries are
      posted.

   6) Develop and implement procedures to properly record transactions related to the
      change in overpayments from claimants in the future.

Management’s Response

Management concurs with the recommendations. The Reconciliation Checklist will be
updated to include deadlines for monthly, quarterly and year end reporting
requirements. The checklist will also be updated to add requirements for verifying the
format of the statements with OMB A-136, A-11 and the US SGL. The program office
has agreed to reconfigure the summary report to properly reflect the payment data for
each section of the LHCWA, by March 31, 2013.


____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    12                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

OWCP has been making a concerted effort to recruit and hire new employees with
extensive knowledge of the US SGL, as well as, expertise in reviewing journal entries
and the associated supporting documentation. It is management’s opinion that these
efforts will improve our controls over journal entries. Additionally, a list of all journal
entries will be compiled by month, quarter and year end to ensure that all entries are
recorded timely.

Auditors’ Response

We will conduct follow-up procedures in FY 2013 to determine whether corrective
actions have been developed and implemented.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    13                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

2. Controls over the Assessments Subsidiary Ledger Need Improvement
During the FY 2012 audit, we performed testing over the LHWCA Special Fund’s
assessments receivables. For one of the three assessment overpayment samples
tested, the accounts receivable balance in the detailed subsidiary ledger exceeded the
balance confirmed by the insurance carrier or self-insured employer. As a result, OWCP
management reviewed the accounts receivable subsidiary ledger and determined that
the assessment overpayment balances for 22 carriers and self-insured employers were
overstated by $92,660. OWCP subsequently corrected these errors for the year ended
September 30, 2012.

These exceptions occurred because the OWCP did not record a final assessment
amount in the accounts receivable subsidiary ledger for those carriers that did not
receive a second assessment bill. This resulted in an error in the calculation of ending
balances. Further, the OWCP did not have any policies or procedures that required
someone other than the accountant who recorded the assessments activity to
periodically review the accounts receivable subsidiary ledger to ensure amounts were
correctly recorded.

Without adequate management review there is an increased risk that significant errors
could occur and not be detected and corrected by management in a timely manner.

The Standards state:

       Internal control should generally be designed to assure that ongoing
       monitoring occurs in the course of normal operations. It is performed
       continually and is ingrained in the agency’s operations. It includes regular
       management and supervisory activities, comparisons, reconciliations, and
       other actions people take in performing their duties.

To address the issues above, the OWCP Acting Director should develop and implement
policies and procedures that require someone other than the preparer to periodically
review the subsidiary ledger to ensure all required amounts, including the final
assessment, are accurately recorded for the carriers.

Management’s Response

Management concurs with the recommendations. Currently, assessments are billed in
January and July of the program year. In accordance with this schedule, the Lead
Accountant will review the subsidiary ledger subsequent to each billing cycle to ensure
that the amounts are accurately recorded for the carriers. As part of this review, the
Lead Accountant will select a sample of carriers from the final assessment and verify
the balances with the program office to provide additional assurance that final
assessments were correctly recorded even in situations where the carrier did not

____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    14                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report

                                                                           Significant Deficiencies
                                                                                           Exhibit I

receive a second assessment bill. Upon completion of each review, the Lead
Accountant will provide the results to the Accounting Officer for final review and
signature. Management agrees to amend the procedures to include this review and
verification.

Throughout the year, it may be possible for an assessment bill to be amended. When
this occurs, the program office has agreed to send a copy of the amended bill to the
Accountant as an email attachment. This will serve as the supporting documentation for
the change in the subsidiary ledger. The program office will amend their procedures to
include this process.

Auditors’ Response

We will conduct follow-up procedures in FY 2013 to determine whether corrective
actions have been developed and implemented.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    15                     Report Number: 22-13-004-04-432
                                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report

                                                   Status of Prior Year Findings and Recommendations
                                                                                            Exhibit II

  The following table provides the fiscal year 2012 status of all recommendations included
  in the Independent Auditors' Report on the U.S. Department of Labor’s (DOL) Longshore
  and Harbor Workers’ Compensation Act Special Fund’s fiscal year 2011 Financial
  Statements, Report No. 22-12-004-04-432 (March 1, 2012).

                        FY
Fiscal Year (FY)                                                                              FY 2012
                     Finding                 FY 2011 Recommendations
 2011 Finding                                                                                  Status
                    Originated

Internal Controls   2010 (as a Recommendation: Design and implement
Over the            Material   policies and procedures that require a
Financial           Weakness) comprehensive and detailed review of all
Reporting                      financial information in the draft financial
Process Need                   statements. The policies and procedures should
Improvement                    include:
                               a. Specific procedures for agreeing comparative
                                   prior year financial data to the prior year                 Closed
                                   audited statements;
                               b. Comparing financial data reported on the
                                   different statements to ensure accuracy and                 Closed
                                   consistency;
                               c. Reconciling the financial data between the                   Open
                                   general ledger and subsidiary ledgers,                      (See
                                   including the case management system, to                  Exhibit I,
                                   ensure     existence,     completeness,    and            comment
                                   accuracy of financial data reported;                        no. 1)
                               d. Performing a budgetary to proprietary account
                                   relationship analysis and resolving identified              Closed
                                   variances; and
                               e. Analyzing significant variances between
                                   current period and prior period financial                   Closed
                                   information.
                               Recommendation: Develop monitoring controls                     Open
                               to ensure that sufficient supervisory review                    (See
                               controls over journal entries and the related                 Exhibit I,
                               documentation are being performed before the                  comment
                               journal entries are posted to the general ledger.               no. 1)




    ____________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
                                        16                     Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2012 and 2011


                           Assets                                     2012                2011
Intra-governmental assets:
   Funds with U.S. Treasury (Note 1c and Note 2)              $        8,617      $        5,164
   Investments, net (Note 1d and Note 3)                          55,656,000          58,170,000
            Total intra-governmental assets                       55,664,617          58,175,164
Accounts receivable, net (Note 1e and Note 4)                      2,847,573         1,762,823
           Total assets                                       $   58,512,190      $ 59,937,987
               Liabilities and Net Position
Liabilities:
  Accrued benefits payable (Note 1f )                         $    1,314,535      $      655,439
  Deferred revenue (Note 1h)                                      30,778,861          30,343,942
  Other liabilities (Note 1g and Note 5)                           6,376,579           7,425,371
            Total liabilities                                     38,469,975          38,424,752
Net position:
  Cumulative results of operations -- Other                       20,042,215        21,513,235
            Total liabilities and net position                $   58,512,190      $ 59,937,987


See accompanying notes to financial statements.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    17                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                     Statements of Net Cost
                          Years ended September 30, 2012 and 2011


                                                                      2012                  2011
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                   $    112,788,457      $   112,862,602
  Wage increase compensation, Section 10(h)                         1,340,972            1,388,781
  Compensation payments for self-insured employer
    in default, Section 18(b)                                       7,056,558             6,303,804
  Defaulted self-insured employer compensation
    payments backed by securities, Section 32(a)                      800,829              967,854
  Rehabilitation services, Section 39(c)                            2,322,488            2,822,065
  Medical services, Section 7(e)                                        3,975                   —
            Net cost of operations                           $    124,313,279      $   124,345,106


See accompanying notes to financial statements.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    18                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2012 and 2011


                                                                     2012                  2011
Cumulative results of operations, beginning                $      21,513,235      $     21,119,180
Budgetary financing sources:
  Transfers in/out without reimbursement (Note 6)                  (2,119,986)          (2,118,307)
  Non-exchange revenues (Note 1i):
    Interest                                                          18,628                24,791
    Fines and penalties                                              456,980               472,110
    Assessments                                                  124,486,637           126,360,567
       Total non-exchange revenues                               124,962,245           126,857,468
Total financing sources                                          122,842,259           124,739,161
Net cost of operations                                          (124,313,279)         (124,345,106)
       Cumulative results of operations and
          net position, end of period                      $      20,042,215      $     21,513,235


See accompanying notes to financial statements.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    19                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                           Statements of Budgetary Resources
                       Years ended September 30, 2012 and 2011


                                                                 2012                2011
Budgetary Resources:
  Unobligated balance, brought forward, October 1       $      58,068,382 $         59,983,697
  Budget Authority (mandatory)
    Appropriations (assessments, mandatory)                   123,860,636         124,644,808
    Spending authority from offsetting collections                 21,751              29,609
           Total budgetary resources                    $     181,950,769 $       184,658,114
Status of Budgetary Resources:
  Obligations incurred (Note 7)                               127,052,030         126,589,732
  Unobligated balances, end of year:
     Exempt from apportionment                                 54,898,739          58,068,382
            Total status of budgetary resources         $     181,950,769 $       184,658,114
Change in Obligated Balance:
  Unpaid obligations, brought forward, October 1        $         655,439 $         2,478,421
  Obligations incurred                                        127,052,030         126,589,732
  Less: Outlays (gross)                                      (126,392,933)       (128,412,714)
  Obligated balance, end of year                        $       1,314,536 $           655,439
Budget Authority and Outlays, Net:
  Budget authority, gross (mandatory)                   $     123,882,387 $       124,674,417
  Actual offsetting collections (mandatory)                       (21,751)            (29,609)
  Budget authority, net (mandatory)                     $     123,860,636 $       124,644,808
  Outlays, gross (mandatory)                                  126,392,933         128,412,714
  Actual offsetting collections (mandatory)                       (21,751)            (29,609)
  Outlays, net (mandatory)                              $     126,371,182 $       128,383,105


See accompanying notes to financial statements.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    20                     Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                             Notes to the Financial Statements
                        Years ended September 30, 2012 and 2011



(1)   Summary Of Significant Accounting Policies
      The principal accounting policies which have been followed in preparing the
      accompanying financial statements for the Fund are set forth below.
      (a)   Reporting Entity
            The Longshore and Harbor Workers’ Compensation Act (LHWCA) Special
            Fund (the Fund) is administered by the Department of Labor (DOL), Office of
            Workers’ Compensation Programs (OWCP), Division of Longshore and Harbor
            Workers’ Compensation program (DLHWC). The DLHWC has direct
            responsibility for administration of the Fund. The Fund offers compensation,
            and in certain cases, medical care payments to employees disabled from
            injuries which occurred on the navigable waters of the United States, or in
            adjoining areas used for loading, unloading, repairing, or building a vessel. The
            Fund also extends benefits to dependents if any injury resulted in the
            employee’s death.
            Additionally, the LHWCA [Section 10(h)] provides annual wage increase
            compensation (cost of living adjustments). Fifty percent of this annual wage
            increase for pre-1972 compensation cases is paid by the annual assessment.
            The remaining fifty percent is paid by the Federal Employees’ Compensation
            Act’s Special Benefit Fund through Federal Appropriations.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Fund, in
            accordance with U.S. generally accepted accounting principles and the form
            and content requirements of Office of Management and Budget (OMB) Circular
            A-136, Financial Reporting Requirements. These financial statements have
            been prepared from the books and records of the Fund. These financial
            statements are not intended to present, and do not present, the full cost of the




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     21                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                      Years ended September 30, 2012 and 2011


          LHWCA Program (the Program). In addition to the Fund costs presented in
          these statements, the full cost of the Program would include certain direct
          costs of OWCP in the form of salaries and expenses for administration of the
          Program and allocated costs of OWCP and other DOL agencies incurred in
          support of the Program. The full cost of the Program is included in the DOL
          consolidated financial statements and related notes. The Fund is considered a
          fiduciary activity of DOL and is properly disclosed and reported in the
          consolidated financial statements of DOL as a fiduciary fund.
          U.S. generally accepted accounting principles encompass both accrual and
          budgetary transactions. Under accrual accounting, revenues are recognized
          when earned, and expenses are recognized when a liability is incurred.
          Budgetary accounting facilitates compliance with legal constraints on, and
          controls over, the use of Federal funds. These financial statements are
          different from the financial reports, also prepared by management pursuant to
          OMB directives, used to monitor the Fund’s use of budgetary resources.
    (c)   Funds with U.S. Treasury
          The Fund’s cash receipts and disbursements are processed by the U.S.
          Treasury. Funds with U.S. Treasury represent obligated balances available to
          pay current liabilities and finance authorized purchase commitments.
    (d)   Investments, Net
          Investments in U.S. Government securities are reported at cost, net of
          unamortized premiums or discounts, which approximate market value.
          Premiums or discounts are amortized on a straight-line basis, which
          approximates the effective interest method. The Fund’s intent is to hold
          investments to maturity, unless they are needed to finance claims or otherwise
          sustain the operations of the Fund. No provision is made for unrealized gains
          or losses on these securities because they are held to maturity. A portion of
          these investments is available for payment of compensation and medical
          benefits to covered employees of the defaulted companies.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    22                     Report Number: 22-13-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                              Notes to the Financial Statements
                      Years ended September 30, 2012 and 2011


    (e)   Accounts Receivable, Net
          The amounts due as receivables are stated net of an allowance for
          uncollectible accounts. The allowance is estimated based on past experience
          in the collection of the receivables and an analysis of the outstanding
          balances. Accounts receivable are comprised of assessments receivable and
          Fund benefit overpayments made to individuals primarily from amended
          compensation orders and corrections of payment computations.
    (f)   Accrued Benefits Payable
          The Fund provides compensation and medical benefits for work related injuries
          to workers in certain maritime employment. The Fund recognizes a liability for
          disability benefits payable to the extent of unpaid benefits applicable to the
          current period. Ultimate responsibility for payment of such claims rests with the
          employer organizations.
    (g)   Other Liabilities
          Other liabilities are comprised primarily of amounts received by the Fund from
          defaulted employers which are being held as security by authority of
          Section 32 of the LHWCA. These funds and investments are available for
          compensation and medical benefits to covered employees of the defaulted
          companies. Management estimates that these funds and investments held will
          be sufficient to cover the future benefits associated with the covered
          employees. Also included in other liabilities are assessment overpayments by
          insurance carriers or self-insured employers which are to be refunded at the
          insurance carrier or self-insured employers’ request or applied to reduce future
          assessments.
    (h)   Deferred Revenue
          Deferred revenue represents the portion of assessment revenue extending
          beyond September 30, the Fund’s accounting year end. The annual
          assessments cover a calendar year and, accordingly, revenue extending
          beyond September 30 has been deferred. Deferred revenue reported on the
          balance sheets is considered “Other Liabilities” under OMB Circular A-136.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    23                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                      Years ended September 30, 2012 and 2011


    (i)   Financing Sources - Non-Exchange Revenue
          Non-exchange revenues arise from the Federal government’s power to
          demand payments from and receive donations from the public.
          The Fund’s primary source of revenue is annual assessments levied on
          insurance carriers and self-insured employers. Assessments are recognized as
          non-exchange revenue when due. Additional assessments may result from
          the application of audit procedures on reported carrier data. These
          assessments are recognized as revenues when final agreement is reached
          with the carriers. The Fund receives interest on Fund investments and on
          Federal funds in the possession of non-Federal entities. The Fund also
          receives revenue from fines and penalties assessed in accordance with
          various sections of the LHWCA.
    (j)   Reclassifications
          The FY 2011 statements were reclassified to conform to the FY 2012 financial
          statement presentation requirements, including changes in the presentation of
          the Statement of Budgetary Resources and the reclassification of Audit
          Recoveries to Assessments on the Statement of Changes in Net Position and
          the related verbiage in Management’s Discussion and Analysis.




____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    24                     Report Number: 22-13-004-04-432
                                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 

                                Notes to the Financial Statements
                          Years ended September 30, 2012 and 2011


(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2012 and 2011 consisted of cash
      deposits of $8,617 and $5,164, respectively. These cash deposits at
      September 30, 2012 and 2011 included $419 and $396, respectively, which are
      being held as security by authority of Section 32 of the LHWCA. These funds relate
      to the default of self-insured employers, and are available for payment of
      compensation and medical benefits to covered employees of the defaulted
      companies.
      Funds with U.S. Treasury at September 30, 2012 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)          Available    Unavailable Yet Disbursed Entity Assets    Assets       Total

      Trust Fund      $            —             —          8,617        8,617            — $      8,617



      Funds with U.S. Treasury at September 30, 2011 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)          Available    Unavailable Yet Disbursed Entity Assets    Assets       Total

      Trust Fund       $           —             —          5,164         5,164            — $      5,164




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     25                     Report Number: 22-13-004-04-432
                                         Longshore and Harbor Workers’ Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 

                                Notes to the Financial Statements
                          Years ended September 30, 2012 and 2011


(3)   Investments, Net
      Investments at September 30, 2012 and 2011 consisted of the following:
                                                           September 30, 2012
                                          Face          Premium           Net             Market
      (In Dollars)                        Value        (Discount)        Value            Value
      Intragovernmental securities:
         Non-marketable:
            Par value               $   55,656,000            —        55,656,000       55,656,000


                                                            September 30, 2011
                                          Face           Premium           Net             Market
      (In Dollars)                        Value         (Discount)        Value            Value
      Intragovernmental securities:
         Non-marketable:
            Par value               $   58,170,000             —        58,170,000       58,170,000




      Investments of $6,180,100 and $6,614,223 at September 30, 2012 and 2011,
      respectively, are restricted assets that are being held as security by authority of
      Section 32 of the LHWCA. Investments at September 30, 2012 and 2011 consist of
      overnight securities. Investments at September 30, 2012 bear an interest rate of
      0.05% compared to an interest rate of 0.00% for September 30, 2011. Interest rates
      on securities bought and sold during FY 2012 ranged from 0.00% to 0.12%
      compared to 0.00% to 0.18% for FY 2011.




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     26                     Report Number: 22-13-004-04-432
                                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 

                                 Notes to the Financial Statements
                         Years ended September 30, 2012 and 2011


(4)   Accounts Receivable, Net
      Accounts receivable at September 30, 2012 and 2011 consisted of the following:
      (In Dollars)                                                             2012                2011
      Benefit overpayments                                            $      1,688,118      $    1,695,591
      Assessments receivable                                                 1,637,123             499,129
      Less: allowance for doubtful accounts                                   (477,668)           (431,897)
            Total accounts receivable from the public, net            $      2,847,573      $    1,762,823


      Assessments receivable represent the unpaid annual assessments. Accounts
      receivable from benefit overpayments to claimants arise primarily from amended
      compensation orders and corrections of payment computations. These receivables
      are primarily recovered by partial and total withholding of benefit payments.
      Changes in the allowance for doubtful accounts during FY 2012 and FY 2011
      consisted of the following:
                                                                      2012
                                   Allowance          Write                                     Allowance
      (In Dollars)               October 1, 2011      Offs                Bad Debt          September 30, 2012

      Entity assets:
        Benefit overpayments $         (429,402)              –                (41,524) $            (470,926)
        Assessment receivable            (2,495)              –                 (4,247)                (6,742)

                            $          (431,897)              –                (45,771) $            (477,668)

                                                                      2011
                                   Allowance           Write                                    Allowance
      (In Dollars)               October 1, 2010       Offs                  Bad Debt       September 30, 2011

      Entity assets:
        Benefit overpayments $         (504,212)                  –             74,810 $              (429,402)
        Assessment receivable           (45,002)                  –             42,507                  (2,495)

                            $          (549,214)                  –            117,317 $              (431,897)




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     27                     Report Number: 22-13-004-04-432
                                           Longshore and Harbor Workers’ Compensation Act Special Fund
                                                   Financial Statements and Independent Auditors’ Report



                            LONGSHORE AND HARBOR WORKERS’ 

                             COMPENSATION ACT SPECIAL FUND 

                                  Notes to the Financial Statements
                           Years ended September 30, 2012 and 2011


(5)   Other Liabilities
      Other liabilities at September 30, 2012 and 2011 consisted of the following
      liabilities:
      (In Dollars)                                                      2012              2011
      Other liabilities:
        Assessment overpayments by carriers                     $      196,060     $      810,752
        Defaulted employer liability:
          Held in investments                                        6,180,100          6,614,223
          Held in cash                                                     419                396
                                                                     6,180,519          6,614,619
                     Total other liabilities                    $    6,376,579     $    7,425,371



      Assessment overpayments by carriers are to be refunded upon request or applied
      to reduce future assessments.
      Defaulted employer liability relates to cash and investments held by the Fund which
      are being held as security by authority of Section 32 of the LHWCA. These funds
      are available for compensation and medical benefits to covered employees of the
      defaulted companies.
(6)   Transfers to OWCP
      The Fund is required to reimburse OWCP (a related entity within the Department of
      Labor) for rehabilitation services provided to eligible claimants and certain direct
      expenses associated with administrative support of the Fund. Approved transfers
      out to the OWCP were $2,119,986 in FY 2012 and $2,118,307 in FY 2011.
      Transfers are made from the Special Fund in accordance with sections 39(c), 44(d),
      and 44(j) of the LHWCA.




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     28                     Report Number: 22-13-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’ 

                            COMPENSATION ACT SPECIAL FUND 

                                Notes to the Financial Statements
                           Years ended September 30, 2012 and 2011


(7) 	 Status of Budgetary Resources
     (a) 	 Apportionment Categories of Obligations Incurred
           (In Dollars)	                                            2012               2011
           Direct obligations:
              Exempt from apportionment                       $ 127,052,030    $ 126,589,732


     (b) 	 Explanation of Differences Between the Statement of Budgetary 

           Resources and the Budget of the United States Government 

          A reconciliation of budgetary resources, obligations incurred and outlays, as
          presented in the Statement of Budgetary Resources to amounts included in the
          Budget of the United States Government for the year ended
          September 30, 2011 is shown below:
                                                                          2011
                                                              Budgetary Obligations
             (Dollars in Millions)                            Resources  Incurred         Outlays
            Statement of Budgetary Resources - LHWCA      $        185     $     127 $        128
            Statement of Budgetary Resources - DCCA,                14            10           10
              reported separately
            Adjustments included in the Statement of
              Budgetary Resources                                    2             2            1
            Total Statement of Budgetary Resources	                201           139          139

             Budget of the United States Government       $        201     $     139 $        139




 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     29                     Report Number: 22-13-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report



                         LONGSHORE AND HARBOR WORKERS’ 

                          COMPENSATION ACT SPECIAL FUND 

                              Notes to the Financial Statements
                         Years ended September 30, 2012 and 2011



(8)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations

                                                                    2012                 2011
Resources used to finance activities
  Budgetary resources obligated
    Obligations incurred                                        $127,052,030          $126,589,732
Total resources used to finance activities                       127,052,030           126,589,732

Resources used to finance items not part of the
  net cost of operations
    Resources that funded expenditure transfers                   (2,119,986)            (2,118,307)
Total resources used to finance items not part
  of the net cost of operations                                   (2,119,986)            (2,118,307)
Total resources used to finance the
  net cost of operations                                         124,932,044           124,471,425
Components of net cost of operations that will not
  require or generate resources in current period
  Components not requiring or generating resources
    Revaluation of assets and liabilities                              41,524               (74,810)
    Other                                                            (660,289)              (51,509)
Total components of net cost of operations that will
  not require or generate resources in current period                (618,765)             (126,319)

Net cost of operations                                          $124,313,279          $124,345,106


 (9) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at
      a time for current expenses; there is no reserve for future Fund obligations. In
      keeping with the requirement of Section 44 of the LWHCA, obligations are paid as
      they are incurred. Assessments are based on compensation and medical benefits
      paid in the prior calendar year.
 ____________________________________________________________________________________
                                         U.S. Department of Labor – Office of Inspector General
                                     30                     Report Number: 22-13-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                  THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





____________________________________________________________________________________
                                        U.S. Department of Labor – Office of Inspector General
                                    31                     Report Number: 22-13-004-04-432
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:	     1-800-347-3756
                202-693-6999

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506             

         Washington, D.C. 20210

